 Office of Inspector General
 Report of Audit




  EPA Region 3's Oversight of
Maryland’s Air Enforcement Data

         E1KAF7-03-0047-7100302

           September 29, 1997
Inspector General Division   Mid-Atlantic Division
 Conducting the Audit:       Philadelphia, PA

Program Office Involved:     Air, Radiation & Toxics Division
                             Philadelphia, PA
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF THE INSPECTOR GENERAL
                                  MID-ATLANTIC DIVISION
                                   841 Chestnut Building
                            Philadelphia, Pennsylvania 19107-4431
                                     (215) 566-5800



                                                September 29, 1997


MEMORANDUM

SUBJECT:       Report of Audit on EPA Region 3's
               Oversight of Maryland’s Air Enforcement Data
               Audit Report Number E1KAF7-03-0047-7100302


FROM:          Carl A. Jannetti
               Divisional Inspector General for Audit (3AI00)

TO:            W. Michael McCabe
               Regional Administrator (3RA00)


Attached is our audit report on EPA Region 3's Oversight of Maryland’s Air Enforcement Data. The
overall objectives of this audit were to determine whether the Maryland Department of the
Environment (MDE): (1) identified significant violators in accordance with EPA’s Timely and
Appropriate Enforcement Policy; (2) reported significant violators to EPA; (3) performed inspections
that were sufficient to determine if a facility violated the Clean Air Act; and (4) input the required
information into EPA’s database. This report contains findings and recommendations that are
important to both EPA and MDE.

This audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. This audit report represents the opinion of the
OIG. Final determinations on matters in this audit report will be made by EPA managers in
accordance with established EPA audit resolution procedures. Accordingly, the findings contained in
this audit report do not necessarily represent the final EPA position, and are not binding upon EPA in
any enforcement proceeding brought by EPA or the Department of Justice.




ACTION REQUIRED

In accordance with EPA Order 2750, you as the action official are required to provide this office a
written response to the audit report within 90 days. Your response should address all
recommendations, and include milestone dates for corrective actions planned, but not completed.
We have no objection to the release of this report to the public. Should you have any questions about
this report, please contact me or Patrick Milligan at 215-566-5800.

Attachment
                       EXECUTIVE SUMMARY

PURPOSE            The purpose of this audit was to determine whether the Maryland
                   Department of the Environment (MDE):

                   Ë      Identified significant violators in accordance with EPA’s
                          Timely and Appropriate Enforcement Policy.

                   Ë      Reported significant violators to EPA.

                   Ë      Performed inspections that were sufficient to determine if a
                          facility violated the Clean Air Act.

                   Ë      Input the required information into EPA’s Aerometric
                          Information and Retrieval System.


RESULTS-IN-BRIEF   Our audit disclosed several areas needing improvement with respect to
                   the quality of MDE’s inspections and reporting of enforcement
                   information into EPA’s database.

                   SIGNIFICANT VIOLATORS NOT ALWAYS REPORTED TO
                   EPA AND NO EVIDENCE OF ADEQUATE INSPECTIONS

                   MDE’s inspection program needs improvement. For almost half of the
                   files we reviewed, it was not possible to determine whether the State
                   did enough to identify significant violators of the Clean Air Act. This
                   occurred because there was no evidence in the State’s files to show
                   that the inspector did the evaluations required for Level 2 inspections.
                   Moreover, several MDE inspectors did not complete the tests and
                   evaluations required. As a result, inspection reports were often not
                   thorough enough to show whether a facility complied with EPA
                   requirements, as well as State and federal regulations. Without this
                   documentation, there was no assurance the State’s inspectors
                   determined that the facility complied with the Clean Air Act and the
                   facility’s applicable permits.

                   Because many of the State’s inspection reports did not show which
                   evaluations inspectors performed, EPA cannot assess the adequacy of
                   Maryland’s air inspection program. It is imperative that EPA assess
                   MDE’s inspection efforts, because during the past three fiscal years,
                   MDE performed more than 2,000 inspections at major facilities and
                   reported only six significant violators to EPA. The Agency’s ability to

                                            i               Report No. E1KAF7-03-0047-7100302
assess MDE’s efforts takes on added importance because our limited
review identified four significant violators that MDE did not report to
EPA.

OVER REPORTING LEVEL 2 INSPECTIONS

MDE’s reporting of Level 2 inspections needs improvement.
Moreover, Region 3 needs to establish a formal criterion about how
states and local air pollution control agencies should code Level 2
inspections into EPA’s database. This criterion is needed because we
found that MDE over reported the number of Level 2 inspections it
performed.

We reviewed the 220 inspections that MDE performed at 60 major
facilities during fiscal year 1996. Each was reported as a Level 2
inspection into EPA’s database. However, based on the
documentation in the inspection reports, we concluded that only 48
fulfilled the requirements of a Level 2 inspection. The remaining 172
inspections, or almost 80 percent, did not satisfy the requirements of a
Level 2 inspection. MDE told us that these were not always intended
to be Level 2 inspections, and the over reporting occurred because
EPA’s data system is unable to recognize non-Level 2 inspections. To
the contrary, EPA personnel believe their database does recognize non-
Level 2 inspections.

PENALTIES NOT ALWAYS REPORTED TO EPA

MDE did not always report negotiated and collected penalties into
EPA’s database. By not reporting this information, MDE prevented
EPA from effectively evaluating the adequacy of its penalties. The
Section 105 grant EPA awarded to MDE required the State to report
enforcement actions for all major facilities, including penalty
information, into EPA’s database within 30 days of assessing the
penalty. MDE did not fulfill this grant commitment. MDE contends
that EPA’s inflexible data system inhibited its ability to report
accurately. EPA disagreed, and has indicated its data system
did not cause the inaccurate reporting.

USING INSPECTION RESOURCES MORE EFFECTIVELY

MDE performed multiple inspections at some facilities without
detecting violations of the Clean Air Act. For example, three facilities
that were not targeted to receive multiple inspections underwent a total
of 64 inspections, or an average of 21 per facility. MDE issued only
one Notice of Violation for the 64 inspections, and none of the
inspection reports provided insight into why the State continued to

                        ii                Report No. E1KAF7-03-0047-7100302
                 inspect these same facilities time after time. MDE could have used its
                 inspection resources more effectively if it targeted inspections to
                 facilities where inspectors were more likely to detect violations.


RECOMMENDATION   We recommend that the Region 3 Administrator:
S
                 Ë      Take action to ensure Maryland identifies and reports
                        significant violators as required by its Section 105 grant and by
                        EPA’s Timely and Appropriate Enforcement Policy.

                 Ë      Require Maryland to conduct and document thorough Level 2
                        inspections that determine a facility’s compliance.

                 Ë      As a condition of future grant awards, require Maryland to
                        accurately report inspection and penalty information into
                        EPA’s database.

                 Ë      Work with Maryland officials to better target and use
                        inspection resources.

MDE RESPONSE     The OIG report has identified two areas where we agree that
                 enhancements can be made. One enhancement is to improve the
                 ability of the EPA’s database to accurately capture Maryland’s
                 inspection and penalty data. The second enhancement is to improve
                 documentation of inspection information, and we are currently in the
                 process of implementing changes in this area.

                 The report misrepresents Maryland’s performance with regard to
                 Level 2 inspections. We disagree with the OIG’s finding that facilities
                 did not receive a Level 2 inspection. Regarding the non-reporting of
                 significant violators, we disagree that four facilities should have been
                 reported as such to EPA. Also, the findings and conclusions drawn
                 relative to the usage of inspector resources are inaccurate and
                 misleading. Our strong recommendation is to delete Chapter 5 in its
                 entirety.

                 Also, there was no intention whatsoever to over report the number of
                 Level 2 inspections or conceal penalty information from EPA.

EPA RESPONSE     The issues raised by the report are serious and worthy of the
                 examination provided by the Inspector General. EPA concurs with the
                 findings of this report. The OIG report has provided us with an
                 opportunity to neutrally examine aspects of the MDE enforcement
                 program that are not working as well as intended. EPA Region 3 is
                 committed to work cooperatively with the MDE to address the

                                         iii               Report No. E1KAF7-03-0047-7100302
                 deficiencies identified in the OIG report so as to ensure protection of
                 public health and the environment.

OIG EVALUATION   We acknowledge Maryland’s affirmation that there is inaccurate and
                 incomplete data in AIRS, and that MDE needs to document
                 inspections better. However, after evaluating the remainder of the
                 MDE’s comments that disagreed with our report, our position remains
                 unchanged.




                                         iv                Report No. E1KAF7-03-0047-7100302
                                             TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTER 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
     INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               1
          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1
          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              1
          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     6
          Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  8

CHAPTER 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   11
     SIGNIFICANT VIOLATORS NOT ALWAYS REPORTED TO EPA
           AND NO EVIDENCE OF ADEQUATE INSPECTIONS . . . . . . . . . . . . . . . . . . . . .                                                        11
           Significant Violators Not Reported . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         12
           Level 2 Inspections Not Documented Adequately . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    13
           Adequate Level 2 Inspection Would
                      Have Detected Unpermitted Equipment . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 15
           Documented Inspections Are Essential . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             17
     CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             19
     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      19

CHAPTER 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   25
     OVER REPORTING LEVEL 2 INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                         25
          MDE Inspections Reported As Level 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               26
          Accurate Inspection Information Important To EPA . . . . . . . . . . . . . . . . . . . . . . . . . .                                      27
     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      28

CHAPTER 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   31
     PENALTIES NOT ALWAYS REPORTED TO EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                             31
          MDE Not Updating Into EPA’s Database . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  31
          EPA Attempted To Update Penalty Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     32
     RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     32

CHAPTER 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   35
     USING INSPECTION RESOURCES MORE EFFECTIVELY . . . . . . . . . . . . . . . . . . . . . . .                                                      35
          Multiple Inspections Can Be Beneficial . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              35
          MDE Multiple Inspections With Questionable Benefits . . . . . . . . . . . . . . . . . . . . . . .                                         35
     RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     37

APPENDIX A - MDE’S RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

APPENDIX B - EPA’S RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

APPENDIX C - DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67

                                                                                                  Report No. E1KAF7-03-0047-7100302
Report No. E1KAF7-03-0047-7100302
                           CHAPTER 1
                          INTRODUCTION


Purpose      The purpose of this audit was to determine whether the Maryland
             Department of the Environment (MDE):

             Ë      Identified significant violators in accordance with EPA’s
                    Timely and Appropriate Enforcement Policy.

             Ë      Reported significant violators to EPA.

             Ë      Performed inspections that were sufficient to determine if a
                    facility violated the Clean Air Act.

             Ë      Input the required information into EPA’s Aerometric
                    Information and Retrieval System.


Background   The Clean Air Act (CAA) of
                                                   Air Toxics May Cause 3,000
             1990 lists 188 toxic air
                                                    Cancer Deaths Each Year
             pollutants that must be
             reduced. EPA estimates that
             more than 2.7 billion pounds
             of toxic air pollutants are emitted annually in the United States. The
             list of air toxics touches every major industry, from the mining of base
             metals to the manufacture of high-tech electronics. EPA studies also
             show that exposure to these air toxics may result in up to 3,000 cancer
             deaths each year. Other adverse health effects of air toxics include:
             respiratory illness; lung damage; premature aging of lung tissue; as
             well as retardation and brain damage, especially in children.

             The CAA separately regulates six of the more serious air pollutants —
             ground level ozone, particulate matter, carbon monoxide, sulfur
             dioxide, lead, and nitrogen dioxide. These six criteria pollutants are
             emitted in large quantities by a variety of sources. EPA sets national
             ambient air quality standards for each of these criteria pollutants and
             the states must take action to assure attainment with these national
             standards.

             One criteria pollutant, ground level ozone, is a major problem in the
             Baltimore area, as well as other regions in Maryland. When Volatile
             Organic Compounds (VOCs) react with nitrogen dioxide in the
             presence of sunlight, it creates ground level ozone. This criteria
                       pollutant should not be confused with the “ozone layer” which protects
                       the earth from the sun’s ultraviolet rays.

EPA Awards States      Section 105 of the CAA provided the initial authority for federal grants
Grant Money for Air    to help state and local agencies prevent and control air pollution.
Programs               Region 3 awards Section 105 grant money so that states can operate
                       their air programs in accordance with their grant agreements.
                       Throughout the years, the CAA increased the responsibilities of the
                       states, while grant dollars have declined. However, revenue collected
                       from facilities through the Title V Operating Permit Program should
                       more than offset the decrease of Section 105 funding. The most recent
                       Section 105 grant amounts provided by EPA Region 3 are shown
                       below.

                          Fiscal      Amounts Awarded To          MDE Grant Amounts
                          Year         States in Region 3
                           1995             $19,750,000                 $3,350,000
                           1996             $17,700,000                 $3,200,000
                           1997             $15,900,000                 $2,800,000

                       Before EPA awards each grant, it negotiates a work program with the
                       state. The program contains specific work commitments the state
                       agrees to perform. Region 3 uses the work program as the basis for
                       evaluating the state’s performance under the grant. The work program
                       encompasses activities such as inspections, monitoring, permitting,
                       and enforcement, which includes identifying and reporting significant
                       violators.


Types of Inspections   According to MDE officials, their inspectors conduct inspections at all
                       major facilities each year to ensure they meet federal and state
                       regulations. According to EPA policy, there are five different levels of
                       inspections that can be performed at air pollution facilities. Level 0,
                       commonly called a “drive by,” is the most basic inspection. EPA does
                       not consider this level of inspection to be an acceptable compliance
                       assurance method. A Level 4 inspection is the most thorough and time
                       consuming. This type is generally done only when developing a legal
                       case against the facility. To adequately evaluate a facility’s compliance
                       with the CAA, the Section 105 grants required each state to perform at
                       least a Level 2 inspection at stationary sources.

Types of Permits       To assess compliance during an inspection, the inspector should refer
                       to the facility’s permits. A permit translates requirements of laws such
                       as the CAA into individualized enforceable requirements. In other

                                                2                Report No. E1KAF7-03-0047-7100302
                  words, the permit defines the parameters by which a facility must
                  operate.

                  There are two types of permits. The first is a federally-enforceable
                  construction permit. This type allows a facility to install or construct
                  new equipment and modify its existing equipment. The second type is
                  an operating permit which is not federally enforceable. Any violations
                  of operating permits did not require MDE to place the facility on
                  EPA’s significant violator list unless the permit condition was a
                  federal regulation. Therefore, EPA used the construction permit to
                  measure a facility’s compliance.

EPA Enforcement   When an inspector identifies a violation, MDE should issue the facility
Procedures        a Notice of Violation (NOV). An NOV specifies the type of violation
                  and the regulations the facility violated. It may also require the facility
                  to show what actions it will take to achieve compliance. If the
                  violation meets EPA’s definition of a significant violator, the state
                  should report the facility to EPA for placement on the Agency’s
                  significant violator list. The Section 105 grant required MDE to
                  identify and report significant violators in accordance with EPA’s
                  February 7, 1992, policy entitled Timely and Appropriate Enforcement
                  Response to Significant Air Pollution Violators.

                  According to EPA’s Timely and Appropriate Enforcement Policy, a
                  significant violator is any major stationary source of air pollution,
                  which is violating a federally-enforceable regulation. This policy
                  required states to report significant violators to EPA within one month
                  of detecting the violation, and to maintain the facility on EPA’s list
                  until it achieves compliance. After the violation is reported, the state
                  and EPA should monitor the source until it achieves compliance. This
                  includes determining a time schedule for achieving compliance and
                  assessing a penalty, as appropriate. To resolve violations
                  expeditiously, EPA stresses to each state the importance of identifying
                  and reporting significant violators promptly.

State Reporting   The Section 105 grant allows MDE 30 days to enter significant
Requirements      violators, inspections, and enforcement actions, including penalty
                  information for major sources, into EPA’s Aerometric Information and
                  Retrieval System (AIRS). In addition to reporting significant violators
                  into AIRS, MDE must also report new violators to EPA via telephone.
                  EPA conducts quarterly teleconferences to discuss both new and
                  existing significant violators, and to promote a greater degree of
                  teamwork between themselves and the states. However, if EPA is
                  dissatisfied with a state's enforcement action, the Agency has the
                  authority to override the state and assume the lead in resolving the
                  violation.

                                           3                 Report No. E1KAF7-03-0047-7100302
                      During the last three fiscal years, MDE reported only six significant
                      violators to EPA Region 3 despite performing over 2,000 inspections
                      at major sources of air pollution.

                                                      Violators       Major Source
                                  Fiscal Year         Reported         Inspections
                                      1994                 3               548
                                      1995                 0               771
                                      1996                 3               722
                                      Total                6              2,041



Level 2 Inspections   The State’s fiscal year 1996 Section 105 grant commitments required
Require Numerous      MDE to follow EPA’s Compliance Monitoring Strategy (CMS). The
Evaluations           CMS provides that an on-site visit to a stationary source can be
                      counted as an inspection only if it were a Level 2 inspection or higher.
                      At a minimum, the following tests and evaluations must be performed,
                      when applicable:

                      Ë      For the intervening period after the last inspection, review
                             records and log books showing the facility’s hours of
                             operations, the types and amounts of VOC-containing
                             compounds used, emissions test reports, CEM (Continuous
                             Emissions Monitoring) performance test reports, and other
                             records necessary to evaluate compliance with applicable
                             regulations and permits.

                      Ë      Record process items such as feed rates, temperatures, raw
                             material compositions, and process rates. Also record control
                             equipment performance parameters such as water flow rates
                             and pressure, static pressure drops and electrostatic power
                             levels.

                      Ë      Visible emission observations.

                      The inspection must also include an assessment of the compliance
                      status of all units within a source. These sources can be subject to
                      various air pollution programs such as New Source Performance
                      Standards, State Implementation Plans, Prevention of Significant Air
                      Quality Deterioration, and National Emissions Standards for
                      Hazardous Air Pollutants. Additionally, Region 3 requires the state to
                      collect VOC samples where appropriate.

                                              4                 Report No. E1KAF7-03-0047-7100302
              According to MDE’s Section 105 grant and EPA’s Compliance
              Monitoring Strategy, MDE was required to provide EPA a
              Comprehensive Inspection Plan listing the facilities that would receive
              Level 2 inspections. During fiscal year 1996, MDE scheduled and
              committed to do Level 2 inspections of all 179 major air pollution
              facilities in Maryland.



Scope and     We performed this audit according to the Government Auditing
Methodology   Standards (1994 Revision) issued by the Comptroller General of the
              United States as they apply to performance audits. Our review
              included tests of the program records and other auditing procedures we
              considered necessary.

              To accomplish our objectives, we performed our review at MDE’s
              office in Baltimore. While at the MDE office, we had discussions with
              permit chiefs and air quality program directors. We also interviewed
              managers, engineers, and inspectors from EPA Region 3. We
              attempted to interview State inspectors; however, MDE management
              would not allow us to discuss inspection results with their inspectors.
              Instead, they requested that we communicate any questions directly to
              them.

              We reviewed the CAA, the Code of Federal Regulations, EPA’s
              Timely and Appropriate Enforcement Policy, the CAA
              Compliance/Enforcement Guidance Manual, EPA’s Compliance
              Monitoring Strategy, Maryland Air Regulations, and MDE’s
              Comprehensive Inspection Plan. We also reviewed Section 105 grants
              EPA awarded to Maryland under the CAA and EPA’s midyear reviews
              of the State’s performance under these grants. During this audit, we
              used various printouts from AIRS and MDE’s enforcement database to
              obtain information.

              To evaluate MDE’s enforcement of the CAA requirements, we
              reviewed the air quality files maintained at MDE’s Baltimore office.
              These files contained items such as inspection reports, NOVs, permits,
              permit applications, test results, emission monitoring records, and
              correspondence.

              We judgmentally sampled enforcement files for 60 of the 179 major
              stationary sources of air pollution in Maryland. For the 60 facilities we
              reviewed, MDE performed 307 inspections during fiscal year 1996.
              According to AIRS information input by MDE, 220 of the 307
              inspections were Level 2. We reviewed each of these 307 inspections.


                                       5                Report No. E1KAF7-03-0047-7100302
Facilities that we selected were of varying size and sources of various
pollutants. During this analysis, it was sometimes necessary to review
documents prior to fiscal year 1996. This was done to obtain historical
information, such as how long problems persisted and previous
inspection results. When necessary, we also reviewed the more recent
enforcement information that occurred after the end of fiscal year
1996.

We also evaluated whether MDE accurately reported to EPA the
penalty amounts it assessed and collected from violators of the CAA.
We obtained printouts from MDE’s penalty database and from AIRS
for all penalties assessed from November 1991 to October 1996.

Our audit disclosed areas needing improvement that are discussed in
Chapters 2 through 5. Our recommendations address the need to
improve the quality of inspections, inspection report documentation,
and MDE’s reporting of enforcement information into AIRS.

We reviewed management controls and procedures specifically related
to our objectives, but we did not fully review the internal controls
associated with the input and processing of information into AIRS, or
any other automated records system.

As part of this audit we also reviewed the Region 3 Air, Radiation and
Toxics Division’s Annual Report on Internal Controls for fiscal years
1994 through 1996. These reports were prepared to comply with the
Federal Manager’s Financial Integrity Act. We found that none of the
weaknesses cited during our audit were disclosed in Region 3's annual
reports.

Our survey began on November 27, 1996, and ended on April 29,
1997. As a result of the survey, we initiated an in-depth review on
April 30, 1997. We completed fieldwork for the audit on June 30,
1997. We issued a preliminary summary of our findings to Maryland
on June 26, 1997 and met with MDE management on July 15, 1997 to
discuss the results of our audit. We also met with EPA officials on
July 17, 1997.

We issued a draft report on August 5, 1997. MDE submitted its
response to us on September 4, 1997. EPA Region 3 provided
comments on September 15, 1997. Based on these responses and
subsequent discussions with EPA and MDE, we made minor
modifications to our report. However, our position remains unchanged
on the major issues.




                        6                Report No. E1KAF7-03-0047-7100302
                       MDE’s and Region 3's responses to our findings are summarized at the
                       end of each chapter. We also provide our evaluation of these
                       responses at the end of each chapter. MDE’s complete response is
                       included in Appendix A, and Region 3's complete response is included
                       in Appendix B.


Prior Audit Coverage   An EPA Office of Inspector General audit report (E1KAF6-03-0082-
                       7100115) issued on February 14, 1997, entitled Validation of Air
                       Enforcement Data Reported to EPA by Pennsylvania, discussed
                       Pennsylvania’s inadequate reporting of significant violators to EPA
                       and insufficient inspections. Other OIG audit reports addressed topics
                       similar to those discussed in this report. For example, past reports
                       disclosed that data submitted by the states through AIRS was
                       incomplete, inconsistent, and untimely; AIRS data was not reliable;
                       and, states relied on supplementary information and manual reports
                       from other databases.

                       Past audit reports have also identified concerns with other aspects of
                       EPA’s oversight of state air enforcement programs. These include
                       items such as inadequate penalty calculations, untimely completion of
                       enforcement actions, EPA’s reluctance to withhold funds from states
                       that do not complete grant commitments, and inadequate publicity of
                       enforcement actions. EPA Office of Inspector General reports
                       discussing these topics include:

                              Ë Region 6's Enforcement and Compliance Assurance
                              Program (E1GAF5-06-0056-6100309, September 26,
                              1996)

                              Ë Region 5's Air Enforcement and Compliance
                              Assistance Program (E1GAF5-05-0045-6100284,
                              September 13, 1996)

                              Ë EPA Regional Management of Clean Air Act Section 105 Air
                              Grant Program (E1KAE5-24-0015-5100510, September 29,
                              1995)

                              Ë Follow-up Review on EPA’s Mitigation of Penalties
                              (E1GMG4-05-6009-4400107, September 15, 1994)

                              Ë Capping Report on the Computation, Negotiation,
                              Mitigation, and Assessment of Penalties Under EPA Programs
                              (E1G8E9-05-0087-9100485, September 27, 1989)




                                               7                Report No. E1KAF7-03-0047-7100302
Ë Review of Region 5's Stationary Source of Air Pollution
Compliance and Enforcement Program (E1K67-05-0449-
80743, March 11, 1988).




                8                Report No. E1KAF7-03-0047-7100302
[This page was intentionally left blank]




                   9                Report No. E1KAF7-03-0047-7100302
                         CHAPTER 2
SIGNIFICANT VIOLATORS NOT ALWAYS REPORTED TO EPA
     AND NO EVIDENCE OF ADEQUATE INSPECTIONS


          MDE’s inspection program needs improvement. For almost half of the
          files we reviewed, it was not possible to determine whether the State
          did enough to identify significant violators of the Clean Air Act. This
          occurred because there was no evidence in the State’s files to show
          that the inspector did the evaluations required for Level 2 inspections.
          Moreover, several MDE inspectors did not complete the record
          reviews and evaluations required. As a result, inspection reports were
          often not thorough enough to show whether a facility complied with
          EPA requirements, as well as State and federal regulations. Without
          this documentation, there was no assurance the State’s inspectors
          determined that the facility complied with the Clean Air Act and the
          facility’s applicable permits. Also, without complete inspection
          reports and documentation of violations, MDE does not have a
          thorough compliance history for each facility. This limits MDE’s
          ability to identify chronic violators and effectively plan for future
          inspections.

          From the Comprehensive Inspection Plan that MDE submitted to EPA
          for fiscal year 1996, we selected 60, or 34 percent, of the 179 major
          facilities scheduled for Level 2 inspections. At these 60 facilities, the
          State conducted a total of 307 inspections of which 220 were reported
          as Level 2 inspections (MDE performed multiple inspections at most
          facilities). We reviewed MDE’s enforcement files and inspection
          reports for these 60 facilities and for 26, or almost half of the facilities,
          either MDE did not perform the required reviews and evaluations, or
          the inspection report did not substantiate that MDE conducted a
          Level 2 inspection.

          Because many of the State’s inspection reports did not show which
          evaluations inspectors performed, EPA cannot assess the adequacy of
          Maryland’s air inspection program. It is imperative that EPA assess
          MDE’s inspection efforts, especially because during the past three
          fiscal years, MDE performed more than 2,000 inspections at major
          facilities and reported only six significant violators to EPA.
          Region 3’s ability to assess MDE’s efforts takes on added importance
          because our limited review identified four significant violators that
          MDE did not report to EPA.


                                   10                 Report No. E1KAF7-03-0047-7100302
Significant Violators   EPA personnel discussed two of these significant violators during a
Not Reported            quarterly conference call with MDE. Prior to the phone call, the EPA
                        official responsible for oversight of MDE’s air enforcement program
                        reviewed EPA’s database to determine if MDE had recently issued
                        NOVs to any major facilities. During this review, he found the NOVs
                        MDE issued for these facilities. According to EPA personnel, when
                        they mentioned these two facilities to MDE, State officials said that
                        these violations were “isolated incidents” and were not significant
                        violators. Based on MDE’s explanation, EPA did not pursue the issue
                        further. MDE officials provided a similar explanation to us. However,
                        contrary to MDE’s explanation, our review of the files disclosed that
                        neither of these violations were “isolated incidents.” One facility
                        received three NOVs in seven days, while the other facility received
                        two NOVs in a two week period.

                        For one of these significant violators, a paper manufacturer, MDE
                        identified four opacity violations in two weeks. Opacity violations
                        occur when the plume of smoke from a stack exceeds an allowable
                        density, indicating that the facility is emitting excess pollution. Here,
                        the source was a boiler. State and federal regulations require that this
                        facility maintain an opacity reading of zero percent, that is, no smoke
                        should be visible from the stack. The four opacity violations ranged
                        from 10 to 46 percent, well in excess of the allowable limit. Based on
                        the number of violations and their severity, this was a situation where
                        MDE should have reported the facility as a significant violator.

                        To confirm our conclusions, we requested that EPA review MDE’s
                        enforcement information for these two facilities. The EPA official
                        who originally prompted dialogue about these two violators agreed
                        with our determination that the facilities were significant violators and
                        should have been reported to EPA.

Level 2 Inspections     It is essential that the Level 2 inspections MDE conducts include the
Not Documented          tests, evaluations, and data reviews prescribed for this type of
Adequately              inspection. For example, at a printing facility MDE must review the
                        hours of operation and the amount of inks used and their specific VOC
                        content. This is needed to ensure that the facility is not violating the
                        pollution limits in its permits. Similarly, the emissions data and CEM
                        performance data show daily and continuous information about the
                        amounts of pollution emitted. Without complete inspection reports, it
                        was not possible to tell how much, if any, of the facility’s records the
                        inspector reviewed.

                        MDE inspection reports did not always include the recorded
                        information required for a Level 2 inspection. For example, at
                        facilities with incinerators, not all the inspection reports recorded a

                                                 11                Report No. E1KAF7-03-0047-7100302
review of the operating temperatures of a facility’s incinerator since
the last inspection. This information indicates among other things the
number of days reviewed, that temperature gauges did or did not
operate, or when the facility did not operate its incinerator at
prescribed operating temperatures. Recording other types of operating
data would have provided added insights about a facility.

                                         MDE officials contend that
 MDE Claims Record Review Is
                                         operating parameters such as
   Not Always Necessary
                                         hours of operation, raw
                                         materials usage, and production
                                         amounts are not relevant to
determining compliance at a facility. They said that it is only
important if the facility’s permit contains specific limits on these types
of operating parameters. When specific limits were not mentioned in
the permit, MDE officials claimed that these records were used solely
to support the facility’s annual emissions statement.

As required by their permit, each year facilities must submit an
emissions statement to MDE. This is a statement certifying the
amount of emissions for each regulated pollutant. MDE requires
facilities to maintain records supporting the emissions statement for a
period of at least three years. Many of the records used to prepare this
emissions statement are required to be reviewed during a Level 2
inspection. However, MDE personnel said that they review the
records supporting the emissions statement only when a statement
appears suspect.

We believe that in many ways, the emissions statement is the ultimate
barometer of a facility’s compliance with the Clean Air Act.
Therefore, it is crucial that the inspector reviews the records used to
prepare the emissions statement in order to verify exactly how much
the facility polluted the previous year.

EPA personnel believe that record reviews, such as those supporting
the emissions statement, are also a valuable part of any inspection.
They contend that variables such as material usage and periods of
operation affect a facility’s emissions, and may identify problems even
if the emissions statement does not. According to EPA officials, it is
important that records are kept by facilities and that inspectors review
those records to independently verify a facility’s assessment of their
own compliance.

It would appear that MDE agrees with EPA, because the State
consistently requires facilities to maintain these records as part of
complying with its permit. It is not clear, however, why MDE would

                        12                 Report No. E1KAF7-03-0047-7100302
                   require facilities to maintain these records, but rarely review them.
                   Moreover, EPA’s Compliance Monitoring Strategy clearly requires
                   that MDE review these types of records in order to satisfy the
                   requirements of a Level 2 inspection.

                   We recognize that each inspector uses judgement when performing
                   inspections. At a chronic violator, an inspector should review most of
                   the daily operational results. Sources that have a history of compliance
                   could be reviewed less often, but when they are reviewed, they should
                   have all of the same data examined. Both MDE and EPA management
                   need to know how much data an inspector reviewed to assess the
                   adequacy of the inspection. However, most of the inspection reports
                   we reviewed only indicated that the facility was in compliance, or
                   contained performance data only applicable to the day of the
                   inspection.

                   Without recording and evaluating the detailed information discussed in
                   EPA’s Compliance Monitoring Strategy, for the period since the last
                   inspection, assessing the inspector’s efforts was not possible. This
                   information also could have been used by MDE to determine when the
                   next inspection should take place. For example, a facility that emits 98
                   tons per year, while its permit allows 100 tons per year, should receive
                   more scrutiny than a facility emitting 50 tons and having a permit
                   allowing 100.

Adequate Level 2   Before a facility installs or modifies equipment, the owner must obtain
Inspection Would   a construction permit from MDE. At facilities regulated by the Clean
Have Detected      Air Act, two types of equipment require permits. The first and most
Unpermitted        important permit is for equipment that is a source of air pollution. The
Equipment          second is for equipment that is designed to control air pollution.

                                                        At a facility which painted diesel
                    Violations At One Facility          truck engines, there were two VOC
                     Not Detected For Years             sources installed in 1991, without a
                                                        construction permit. MDE did not
                                                        identify these violations for five
                   years despite performing other inspections during this time. During
                   fiscal year 1996 alone, MDE conducted five inspections at this facility,
                   but did not identify either source that was operating without a permit.
                   It was not until fiscal year 1997, that MDE identified the violations
                   and requested the facility to apply for a permit.

                   This facility also had two paint spray booths under one registration
                   number since 1979. MDE was also not aware of this problem. Rather,
                   the State believed that the new spray booth had replaced the existing
                   booth. However, the facility operated both spray booths for 18 years

                                           13                Report No. E1KAF7-03-0047-7100302
before MDE discovered the additional booth. During an October 1996
inspection, the inspector indicated that the two spray booths needed
individual registration numbers. It was not until June 1997, that MDE
received applications for the two spray booths.

An adequate Level 2 inspection should have identified any new or
unreported sources since the time of the last inspection. Had MDE
inspectors compared the facility’s permit to the equipment in the plant,
as required by a Level 2 inspection, the two VOC sources and the
spray booths would have been identified more timely.

Both violations at this facility were for constructing and operating
“pollution-creating” equipment without a permit, a more serious
offense. MDE officials said they did not consider this facility a
significant violator, because it did not install a major piece of
equipment. EPA’s Timely and Appropriate Enforcement Policy does
not differentiate between the size of equipment, only the size of the
facility, and this facility was a major source. Therefore, these
violations meet the definition of a significant violator and should have
been reported to EPA.

                                             We also reviewed MDE’s
  Some Inspection Reports Totaled            enforcement file for a
    Only Five Handwritten Lines              facility that used four
                                             melting furnaces to produce
                                             glass. During fiscal year
1996, MDE performed a two-hour and twenty minute inspection at this
facility that had two of its furnaces operating. The inspector looked for
visible emissions, and noted temperature readings and production rates
for the day of the inspection. This information comprised the entire
inspection report, which totaled five handwritten lines. We saw no
evidence that MDE reviewed the facility’s annual operating parameters
as required by the EPA guidance for a Level 2 inspection. These
included items such as hours of operation, operating temperatures, and
fuel usage. Moreover, the information that was recorded on the
inspection report and reviewed by the inspector was only for one day
and not for the intervening period since the last inspection as required
by the Compliance Monitoring Strategy.

The narrative in the inspection report represented a small portion of the
two-hour and twenty minute inspection. There is no description of
what the inspector did for the majority of the inspection. Because so
little is written on the inspection report, we could not verify whether
MDE determined compliance at this facility. MDE supervisors also
cannot assess the quality of the inspection performed. Likewise, if
EPA air enforcement staff were to review this file for fiscal 1996, they

                        14                Report No. E1KAF7-03-0047-7100302
                  would not be able to make a compliance determination of the facility,
                  or evaluate the adequacy of MDE’s inspection program.

Documented        There are many reasons why it is important to perform thorough
Inspections Are   inspections that are adequately documented. For example, adequately
Essential         performed and documented inspections become more important when
                  the facility’s personnel know the inspector is coming before the
                  inspection begins.

                                                      MDE personnel indicated that
                      Announced Inspections           whenever they planned to perform a
                     Require More Thorough            Level 2 inspection, they usually
                              Review                  provided the facility two to three
                                                      weeks notice of a pending
                                                      inspection. This is to assure that the
                  appropriate plant personnel will be present at the time of the
                  inspection, and that most or all of the equipment is operating.
                  However, at one facility that MDE inspected 21 times during fiscal
                  year 1996, inspection reports indicated that the facility was not
                  operating for 11 of the inspections.

                  Providing advance notice of an inspection gives the facility time to
                  correct any irregularities that may exist at the plant. As a result, at the
                  time of the inspection, the inspector may not be observing “real
                  conditions” at the facility. We do recognize that circumstances
                  sometimes dictate that the inspectors provide advanced notice in order
                  to perform an effective inspection. However, even with advance
                  notice of an inspection, the State inspector often found only a small
                  portion of the plant in operation, and generally, there was no evidence
                  in the State’s files that MDE conducted a follow-up inspection.

                  When announced inspections are necessary, certain aspects of the
                  inspection gain more importance. Because the inspector may not be
                  observing “real conditions,” evaluations of year-round plant operations
                  become more critical and should be evaluated. For example, facilities
                  are required to maintain log books showing gauge readings taken from
                  the plant’s equipment. Reviewing these readings helps ensure that
                  equipment is operating as designed. While checking the facility’s
                  gauges during the inspection evaluates the plant’s performance on the
                  day of the inspection, a review of the log books helps verify year-round
                  performance.

                                                               Without documented
                    Inspection Reports Usually Not             inspections, MDE and EPA
                    Thorough Enough To Determine               cannot easily establish a
                         Compliance Histories                  compliance history of the

                                           15                 Report No. E1KAF7-03-0047-7100302
                 facility. Prior to performing an inspection, the MDE inspector should
                 review the facility’s file to become familiar with applicable regulations
                 and to ascertain a compliance history of the facility. This information
                 would enable the inspector to develop an effective inspection strategy
                 prior to the site visit. It would also assist the State in prioritizing their
                 inspections for the upcoming year.

                 In the files we reviewed, there was often little information describing
                 what happened during the previous inspections. According to MDE
                 officials, the inspectors only document problems found at a facility.
                 They indicated that if the MDE inspector finds the facility to be in
                 compliance, very little is noted on the report. Under this arrangement,
                 some enforcement files may go year after year with little information
                 about the facility.

                                                         Some Region 3 personnel
                      EPA Aware It Could Not             disclosed that they were aware
                        Evaluate MDE’s Air               that MDE’s inspectors were not
                        Enforcement Program              thoroughly documenting
                                                         inspections. However, EPA did
                                                         not take action to improve
                 MDE’s inspection program, or to obtain the information needed to
                 assess MDE’s inspection efforts. Through the Section 105 grant, EPA
                 should have placed more emphasis on requiring MDE to document
                 inspections. This would have given EPA the ability to evaluate the
                 State’s performance and determine whether or not MDE should have
                 reported more significant violators to EPA.


CONCLUSION       The 60 enforcement files that we reviewed represented 34 percent of
                 the major facilities in the State. A significant number of these files did
                 not contain evidence that MDE performed an adequate inspection.
                 Moreover, in some instances, we determined that MDE did not
                 perform the required reviews and evaluations. We believe the
                 conditions we are reporting are indicative of MDE’s entire inspection
                 program.

                 Presently, MDE’s inspection practices do not afford EPA or MDE
                 managers the ability to assess the adequacy of Maryland’s inspection
                 program. This inability also hinders EPA oversight of the State, and
                 provides the public less assurance that Maryland’s air inspection
                 program is achieving its intended goals.


RECOMMENDATION
S


                                          16                 Report No. E1KAF7-03-0047-7100302
                          We recommend that the Region 3 Administrator enforce the
                          requirements of the Section 105 grant awarded to MDE to ensure that
                          the State:

                          1.      Identifies and reports significant violators in accordance with
                                  EPA’s Timely and Appropriate Enforcement Policy.

                          2.      Adequately documents inspections and shows evidence of
                                  conducting Level 2 inspections that are thorough enough to
                                  determine a facility’s compliance with the Clean Air Act.

                          3.      Provides refresher training to state personnel on requirements
                                  of a Level 2 inspection.



MDE RESPONSE

        We are disappointed that the OIG focused only on the federally enforceable aspects of
Maryland’s overall program and chose not to review Maryland’s inspection and compliance program
holistically. Accordingly, the comprehensiveness and integrity of Maryland’s inspection and
compliance program is lost in the narrowness of the audit. The final report should recognize
Maryland’s program and the benefits it provides. We agree that MDE could improve documentation
of inspection information, and we are currently in the process of implementing changes in this area.
We are improving our inspector training and will be developing and using an enhanced compliance
checklist.

        The OIG claimed in the draft report that state inspectors were not allowed to discuss inspection
results with the OIG and that MDE asked that all communication occur between MDE management
and the OIG. This is not true. Since the audit was basically to be conducted as a paper file review, it
was agreed that it would be most beneficial if the OIG worked directly with MDE’s managers. In
view of these facts, we request that the final report language reflect the agreed-upon protocol.

        The OIG states that “During the last three fiscal years, MDE reported only six significant
violators to EPA Region 3 despite performing over 2,000 inspections at major sources of air
pollution.” We are curious as to why reporting a low number of significant violators is viewed as
something bad.

        As evidenced in a December 11, 1996 memo from Region 3's Director of the Air, Radiation
and Toxics Division, Region 3 and MDE agreed that it does not make sense to report facilities having
minor transient violations as significant violators. Three of the four facilities believed by the OIG to
be significant violators were facilities having transient episodes of visible emissions from boilers.
MDE and the Region discussed the situations and jointly agreed that these were not of significant
environmental impact to warrant listing as significant violators. These cases are simply not worthy of
being listed as significant violators, and the Region has concurred previously with us on this. Also,



                                                   17                Report No. E1KAF7-03-0047-7100302
the Region has never mentioned to us a concern that MDE’s inspectors were not thoroughly
documenting inspections.

         The fourth source concerns constructing without a permit, very small sources of VOCs, in an
area of the State that is in attainment for ozone. The important concept to grasp is that for
construction without a permit to be significant, not only must the facility be a “major” source (using
the CAA definition), but the constructed emission source itself must also be “major.” We viewed this
particular situation as a minor violation, and it was therefore not reported as a significant violator to
EPA. In view of the facts presented above, we request that the final report reflect the fact that the four
facilities in question were not significant violators.

        The report states that of the 60 files reviewed, 26 of the facilities did not receive Level 2
inspections. We continue to disagree, however, that these 26 facilities did not receive Level 2
inspections. A review of the 26 files revealed a number of cross-cutting themes. We request that the
final report recognize that when conducting a Level 2 inspection, it is not always necessary to:

       Ë       Conduct a formal Method 9 visible emissions observation,

       Ë       Review records that are required to be kept only to ensure that facilities have a
               basis to substantiate their yearly emission certification submittals,

       Ë       Sample VOC-containing materials,

       Ë       Ensure that all pollution sources are operating at the time of the inspection, or

       Ë       Perform an inspection that requires a specific amount of time.

EPA RESPONSE

        The issues raised by the report are serious and worthy of the examination provided by the
Inspector General. EPA concurs with the findings of this report. The OIG report has provided us with
an opportunity to neutrally examine aspects of the MDE enforcement program that are not working as
well as intended. EPA Region 3 is committed to working cooperatively with the MDE to address the
deficiencies identified in the OIG report so as to ensure protection of public health and the
environment.

        We concur with the main themes and recommendations expressed in this chapter, namely,
Significant Violators (SVs) are not being reported by the MDE, not all inspections the MDE has
performed were Level 2 inspections, and Level 2 inspections performed were not documented
adequately.

         EPA Region 3 believes that MDE is not fulfilling its responsibilities in the identification and
reporting of SVs. This is illustrated when one examines data from the last three fiscal years. During
this period, MDE identified three SVs in fiscal year 94, none in fiscal year 95, and three SVs in fiscal
year 96. During the same time period, MDE performed more than 2,000 inspections at major
facilities. As SV reporting is used as an indicator for compliance, this would indicate an observed

                                                   18                 Report No. E1KAF7-03-0047-7100302
compliance rate that is extraordinarily high. This may be the result of a truly exceptional compliance
program, inadequate inspections, or under-reporting. Regretfully, the lack of documentation in case
and inspection files, which is also a subject of this report, do not permit EPA Region 3 to determine to
what extent one or a combination of the above has resulted in the exceptionally high compliance rate.

        To prepare for quarterly Timely and Appropriate (T&A) calls with MDE, EPA reviews the
AIRS database for all major sources in Maryland to see if any have been placed out of compliance.
This is normally not a very productive effort as there is little violation related information entered into
the AIRS database by MDE. Any discussion of sources identified through the T&A calls is dependent
on MDE providing an explanation of the violation and the compliance history of the source. This is
often not productive either, as illustrated by the example cited in the OIG report of two sources that
the EPA questioned as being SVs. These were dismissed by MDE as “isolated incidents” not worthy
of the source to be listed as SVs. Upon further review, it was found that these were SVs.

       Given the number of sources inspected, the requirements of Level 2 inspections, and MDE’s
available resources, EPA Headquarters’ Office of Enforcement and Compliance Assurance was
concerned that it was likely that these inspections did not meet the minimal Level 2 requirements.
EPA Region 3 has raised this concern on a number of occasions. Most recently, on May 15, 1997,
EPA Region 3 sent a letter to the MDE requesting an explanation for the high number of inspections.
This was followed up during the May 29, 1997, Section 105 midyear grant conference call with MDE.
Moreover, Region 3 has tried to persuade MDE to conduct fewer, but more thorough inspections.

         Adequate case file and inspection documentation is a crucial element in an effective
enforcement and regulatory program. EPA relies on MDE’s thorough documentation of inspection
results to carry out our oversight and enforcement responsibilities under the Clean Air Act. Where
inadequate inspection documentation exists, EPA has no way to evaluate the compliance status of a
source or the extent of MDE’s efforts to determine the source’s compliance status. Moreover, it is
difficult for MDE to understand the historical operations and process changes at a facility.

       An inspection is not an isolated activity, but an activity which is dependent on what knowledge
has been gathered before. The inspection report provides a historical record of facility operations,
emission sources, and problems. This facilitates future comprehensive and quality compliance
determinations. From experience, when EPA conducts an inspection at a facility for which there is
inadequate documentation on file, the inspection takes substantially longer and violations are missed.
This should be the same for the state inspector, and it is poignantly illustrated in the OIG report by the
example of the spray booth that went unregistered and undetected for many years.

        Regarding Recommendation Number 1, in the MDE’s fiscal year 1997/98 grant, they are to
provide to EPA on a quarterly basis, hard copies of NOVs and other noncompliant determinations for
major sources. Also, if there is confusion by the MDE as to the requirements of the Timely and
Appropriate Enforcement Policy, we will initiate new attempts to explain to MDE what is intended by
the policy.

        In response to Recommendation Number 2, EPA Region 3, along with MDE, will develop an
audit plan to review a sampling of MDE inspection reports on a yearly basis to determine if Level 2



                                                    19                Report No. E1KAF7-03-0047-7100302
inspections were accomplished and adequately documented. The audit plan will be a grant
commitment.

         Concerning Recommendation Number 3, EPA will work with MDE to identify the type of
training available for MDE inspectors to better prepare them to perform and document a Level 2
inspection.

OIG EVALUATION

         The overall theme of our audit was to evaluate the effectiveness of EPA’s oversight of
Maryland’s air enforcement program. In large part, this entails determining whether Region 3
received all of the information it needed from the State. This would include information provided
through the AIRS database, teleconferences between Maryland and EPA, and the State’s enforcement
files. It also entails evaluating how EPA reacts when concerns arise. As a result, we focused our
efforts in these areas. The objective of this audit was not to review Maryland’s entire compliance and
inspection program.

        Maryland claims that it has an exceptional air enforcement program. However, we were
unable to verify this because of the lack of documentation in MDE’s enforcement files, and the
erroneous and incomplete data in AIRS. Likewise, Region 3 was unable to perform effective
oversight of MDE’s program without receiving the necessary information. At the beginning of this
audit, we met with the Region 3 staff responsible for the oversight of Maryland’s air enforcement
program. At that time, they expressed concern regarding the lack of documentation in MDE’s files.

        We disagree with MDE’s remarks about interviewing its inspectors. We would have preferred
to deal directly with the inspectors; however, MDE management did not afford us this opportunity.
Our previous experience has been that discussion with inspectors has benefitted the audit process.

       Regarding the four significant violators that we identified during our audit, we still believe
MDE should have reported these facilities as significant violators. As stated in EPA’s response,
Regional officials agreed that two facilities were significant violators. Subsequently, we provided
EPA the State’s enforcement information for the other two. Region 3 personnel now agree that all
four were significant violators.

        Concerning EPA’s memorandum of December 11, 1996, we acknowledge that Region 3 and
MDE agreed that it does not make sense to report facilities having minor and transient violations as
significant violators. However, the violations we found were not minor and transient.

         We also disagree with MDE’s contention that Level 2 inspections were conducted at the 26
facilities we cited in our report. MDE’s response to our draft report described in detail why the State
believed it conducted a Level 2 inspection at these facilities. However, it is important to note that
when we did refer to particular tests not being performed by MDE inspectors, the test was applicable
to that facility. For example, we did not state that a formal Method 9 visible emissions observation
should be conducted for all inspections, we only mentioned it when appropriate. Also, we did not
report that an inspection should last a minimum amount of time in order to be considered Level 2, or
that all equipment must be operating. We also did not state that a record review is always warranted

                                                   20                Report No. E1KAF7-03-0047-7100302
when conducting a Level 2 inspection. Instead, we cited the lack of record reviews when MDE
emphasized the maintenance and availability of records in the facility’s permit requirements. Also, we
did not state that VOC sampling is always warranted as part of a Level 2 inspection. We recognize
that there are other methods of determining compliance at facilities that use materials containing
VOCs.

        Concerning MDE’s question about why reporting a low number of SVs is “bad,” we offer the
following. We agree that, “...an observed compliance rate that is extraordinarily high” is something to
be proud of. However, MDE’s inadequate inspection procedures, its lack of documentation in
inspection reports, and our identifying SVs the State did not report, make the accomplishment suspect.
When MDE improves its inspection documentation and procedures, we believe the State will identify
more SVs.




                                                  21               Report No. E1KAF7-03-0047-7100302
                  CHAPTER 3
OVER REPORTING LEVEL 2 INSPECTIONS


   MDE’s reporting of Level 2 inspections needs improvement.
   Moreover, Region 3 needs to establish a formal criterion about how
   states and local air pollution control agencies should code Level 2
   inspections into EPA’s database. During fiscal years 1995 and 1996,
   MDE reported to EPA that each year it performed more than 700
   Level 2 inspections. Each time MDE reported that it did a Level 2
   inspection, it signified that the State adequately assessed the facility’s
   compliance, and fulfilled its grant commitment to EPA. However, we
   found that MDE over reported the number of Level 2 inspections it
   performed.

   Chapter 2 of this report addressed whether MDE fulfilled its
   commitment to EPA, to perform at least one Level 2 inspection at
   major facilities. During that review, when there were multiple
   inspections at a facility, we grouped the individual inspections to
   determine if combined, they fulfilled the requirements of a Level 2
   inspection. For purposes of this Chapter, we reviewed the 220 Level 2
   inspections performed at 60 facilities. MDE reported each of these
   inspections as a Level 2 inspection in EPA’s database. Based on the
   documentation in the inspection reports, we concluded that only 48
   fulfilled the requirements of a Level 2 inspection. These 48
   inspections were performed at 34 facilities. The remaining 172
   inspections, or almost 80 percent, did not satisfy the requirements of a
   Level 2 inspection.

   MDE acknowledged that all 700 inspections were not Level 2
   inspections. Some of these inspections were only minutes long, and in
   other cases the plants were not in operation during the inspection.
   MDE reported that it did a Level 2 inspection although this type of
   inspection cannot be performed at a facility that is not in operation. At
   a facility that refines soybean oil, MDE received credit for nine Level 2
   inspections. We found that none of these inspections satisfied the
   criteria for a Level 2 inspection.

                                                  Based on the information
          Five Minute Inspection At An            MDE reported to EPA,
          Inoperative Facility Does Not           the State received credit
          Satisfy Level 2 Requirements            for conducting 13 Level 2
                                                  inspections at a facility

                            22                Report No. E1KAF7-03-0047-7100302
                      that operated a thermal soil remediation plant. However, similar to the
                      results discussed in Chapter 2, the documentation in MDE’s files does
                      not show that each was a Level 2 inspection. Moreover, for several
                      visits the inspector’s description of the records reviewed and
                      evaluations performed indicated the inspection was not a Level 2.
                      When we combined the records reviewed and evaluations performed
                      during seven of the visits, we believe they equated to only one Level 2
                      inspection. The plant was not in operation for the remaining six
                      inspections, and a Level 2 inspection cannot be performed when a
                      facility is inoperative. For three of these inspections, the inspector
                      only spent five minutes at the facility. For the other three inspections,
                      the inspector spent only up to 15 minutes at the facility. EPA
                      personnel estimate that a properly conducted Level 2 inspection would
                      usually take several hours. In effect, MDE did one Level 2 inspection,
                      but reported 13 to EPA.

MDE Inspections       When asked if these short visits were in reality Level 2 inspections,
Reported As Level 2   MDE told us the individual visits were not intended to be Level 2
                      inspections, but in total at least one Level 2 inspection was conducted.
                      They said that because there is only one code available to them, an
                      “08,” for state inspections, they had no other recourse but to report 13
                      Level 2 inspections to EPA. According to MDE personnel, there is no
                      AIRS document or reference guide found that says the “08” action
                      code should only be used for “Level 2 inspections.” In response to our
                      preliminary finding, in July 1997 MDE wrote:

                             The [MDE] and Region 3 have been aware for some time that
                             there has not been significant flexibility in entering inspections
                             in AIRS. We have been telling EPA for quite some time now
                             that there is a need for additional codes for various types of
                             inspections so that only true Level 2 inspections are entered as
                             such. Since this has now been raised as an issue, the Region
                             has committed to working with us to create additional codes so
                             that only true Level 2 inspections will be coded as such.

                      When discussing MDE’s response to our preliminary finding with
                      EPA, they stated they had not committed to create additional codes.
                      EPA personnel indicated they already created new inspection codes at
                      MDE’s request in 1991. This was done to enable the State to more
                      accurately report its inspections. The codes created were for
                      observations, permit to operate inspections, and complaint inspections.


                      The State now contends that it needs another code, in addition to the
                      “08“ code, to accurately report Level 2 inspections. Region 3
                      personnel told us they believed, and also believed MDE knew, that an

                                              23                Report No. E1KAF7-03-0047-7100302
                      “08” signified a Level 2 inspection was conducted. Furthermore,
                      Regional officials believed that other Region 3 states were using only
                      the “08“ for Level 2 inspections without over reporting.

Accurate Inspection   EPA Region 3 and Headquarters personnel rely on the Level 2 data
Information           reported by MDE. Both monitor the number of Level 2 inspections
Important To EPA      planned and completed by the states. This information is used to
                      ensure that each state fulfills its commitments to EPA, and to measure
                      the effectiveness of the states’ inspection and enforcement programs.
                      Inaccurate information hinders EPA’s ability to oversee a state’s
                      efforts. It is also noteworthy that EPA used the information reported to
                      inform Congress about accomplishments.

                      Region 3 personnel and EPA Headquarters told us they speculated for
                      some time that MDE over reported the number of Level 2 inspections.
                      However, neither took action to verify the over reporting. After the
                      new codes were created in 1991, Region 3 personnel and EPA
                      Headquarters stated that MDE had not mentioned any problems with
                      entering Level 2 inspection information into EPA’s database. In any
                      event, EPA did not communicate to the Region 3 states, in writing, a
                      formal criterion for reporting inspections. Region 3 needs to clarify
                      how Level 2 inspections, short observations and other types of
                      inspections are to be reported, in order to eliminate over reporting.


RECOMMENDATION        We recommend that the Region 3 Administrator:
S
                      1)     Establish a formal criterion about how states and local
                             air pollution control agencies should code the Level 2
                             inspections into EPA’s database.

                      2)     Advise Region 3 states and local air pollution control
                             agencies in writing to use the formal criterion
                             established for reporting Level 2 inspections into EPA’s
                             database.

                      3)     Ensure that all Region 3 states accurately report Level 2
                             inspections into EPA’s database. This can be
                             accomplished during midyear evaluations of the state,
                             by verifying the information states provide EPA.

                      4)     Discuss with EPA Headquarters the need to establish a
                             national code that all states can use to input Level 2
                             inspections into EPA’s database.

MDE RESPONSE

                                              24               Report No. E1KAF7-03-0047-7100302
        We concur with the recommendations contained in the draft report concerning entry of
inspection data in AIRS. EPA’s guidance on the entry of inspections in AIRS has been less than clear.
Currently, the system is unable to characterize our non-Level 2 state inspections as anything other than
a Level 2 inspection. It has been Maryland’s experience that AIRS is an inflexible, non-user-friendly
database.

       MDE supports EPA’s desire to collect and report consistent national environmental data,
including the quality and quantity of inspections conducted. It is important to have specific codes to
account for the different type of inspections and field activities. It is not clear to us why there has
never been a specific code set up for Level 2 inspections.

        It needs to be made clear in the final report that there was absolutely no intent to over
report the number of Level 2 inspections conducted in Maryland [emphasis added by MDE]. We
were merely using an inflexible database as best we could to account for all our inspection activity.
The key here is that Maryland uses AIRS to account for all inspection activity, not just that required by
federal requirements.

EPA RESPONSE

        We agree with the findings expressed in this chapter and agree with the proposed
recommendations. EPA Region 3 has been proactive in conducting yearly training for the past seven
years for all states and counties to provide updates and refresher training on the use of the AIRS data
base system. MDE contends that it was unaware of how to accurately enter their various inspections
into the AIRS data base. This does not appear to be a problem in other states, though Region 3 will be
looking into this issue in other states. MDE already has numerous codes they can use in the AIRS data
base to reflect the different types of inspections performed during a fiscal year. EPA will discuss these
codes with MDE staff to make sure they understand their proper use.

       Concerning Recommendation Numbers 1, 2, and 4, Headquarters has been contacted about the
problem of coding various levels and types of inspections into the AIRS data base. It appears that
changes will be made to the national AIRS policy to accommodate the concerns raised in this report.
Region 3 states will then be notified in writing in reference to the current procedures of inputting
Level 2 inspections into AIRS using the “08” code.

        In reference to Recommendation Number 3, the responsibility rests with the State because the
data inputted by the states is done on a daily basis which cannot be validated by EPA. However, as
the recommendation mentions, EPA will review select facility files on a regular basis to assure that the
data base reflects what is contained in the files.

OIG EVALUATION

        We should point out that, we did not determine, or report on MDE’s intent for over reporting
inspections. However, we did determine some of the causes for the over reporting. MDE cites the
inadequacies of EPA’s database and the lack of EPA guidance as the cause for the over reporting of
Level 2 inspections. EPA claims that in the past, it has accommodated MDE with additional codes
and thus, this problem should not have persisted. The additional codes that EPA had already created

                                                   25                Report No. E1KAF7-03-0047-7100302
for MDE should have alleviated much of this over reporting, but it did not. In any event, both EPA
and MDE need to be clear on how the various types of inspections should be coded into AIRS.
Establishing the formal criterion for coding Level 2 inspections and performing periodic evaluations
of MDE’s inspection information entered into AIRS should ensure that inspections are coded
correctly. It is troubling that MDE did not resolve its reporting problems with EPA. It is also
troubling that EPA — through its oversight — did not correct this problem.




                                                  26               Report No. E1KAF7-03-0047-7100302
                                    CHAPTER 4
               PENALTIES NOT ALWAYS REPORTED TO EPA

                      MDE did not always report negotiated and collected penalties into
                      EPA’s database. By not reporting this information, MDE prevented
                      EPA from effectively evaluating the adequacy of its penalties. The
                      Section 105 grant EPA awarded to MDE required the State to report
                      enforcement actions for all major facilities, including penalty
                      information, into EPA’s database within 30 days of assessing the
                      penalty. MDE did not fulfill this grant commitment.

                      To evaluate Maryland’s reporting of penalty information in EPA’s
                      database, we reviewed the penalties MDE assessed from November
                      1991 through October 1996. There were 19 major facilities that were
                      assessed penalties by MDE during this time. For all 19, we compared
                      information in the State’s database to the information MDE reported to
                      EPA.

MDE Not Updating      Both databases contained similar amounts of penalties assessed.
Into EPA’s Database   However, MDE seldom reported any subsequent information. Often,
                      MDE and the facility would agree on a negotiated or settled amount
                      that was less than originally assessed. However, MDE did not report
                      this negotiated amount into EPA’s database. Therefore, EPA was
                      unable to evaluate the State’s negotiations with the facilities. The
                      databases also contained different amounts of penalties collected. This
                      occurred because MDE did not enter the collected amounts. Several
                      penalties have appeared as uncollected in EPA’s database for as long
                      as five years. At the time of our review, EPA’s database showed
                      $375,350 in outstanding penalties, while MDE’s database showed that
                      all penalties were fully collected.




                          Penalty Amounts            EPA Database        MDE Database
                               Assessed                 $462,300             $462,300
                                Settled              None Reported           $313,850
                              Collected                 $ 86,950             $313,850
                             Outstanding                $375,350                $0


                                             27                Report No. E1KAF7-03-0047-7100302
                           According to MDE officials, EPA’s database is not a matter of official
                           record, and it is antiquated, unreliable, and not user friendly. MDE
                           personnel also told us that to compensate for EPA’s inadequate
                           database, they developed their own penalty tracking system which
                           contains updated and reliable penalty information. EPA personnel
                           were unaware that Maryland had its own database to track penalty
                           information. In any event, it appears to us that MDE should have
                           entered the same information into EPA’s database.

EPA Attempted To           The only penalty information available to EPA for Maryland is what is
Update Penalty             entered into the Agency’s database by MDE. At the annual State Air
Information                Director’s meeting in 1996, EPA personnel provided Region 3 states
                           penalty information derived from EPA’s database. The states were
                           instructed to review the data and notify EPA of any discrepancies.
                           Even though MDE’s amount of collected penalties was significantly
                           under reported, Maryland did not alert EPA of this problem.


RECOMMENDATIO              We recommend that the Region 3 Administrator as a condition of
N                          future grant awards, require MDE to accurately report into EPA’s
                           database penalties assessed, settled and collected.

MDE RESPONSE

        We agree that there should be improvements to the AIRS database to accurately capture
Maryland’s penalty data. We are anxious to have our good penalty record be a part of the national
picture on enforcement of air pollution requirements. However, the AIRS database inhibits our ability
to do this because of its inflexible set-up that attempts to put a one size fits all approach on penalty
activity.

        There was no intention whatsoever to attempt to conceal data or information from EPA
and we ask that this be made clear in the final report [emphasis added by MDE]. It would have
been to our advantage to have accurate penalty activity in the national AIRS database, but Maryland’s
proposed, assessed, and settled penalties, as well as time payments cannot be accommodated by the
current AIRS setup.

EPA RESPONSE

        We agree with the findings expressed in this chapter and agree with the proposed
recommendation. EPA’s national goal is to have all federal, state and local enforcement actions for
Clean Air Act violations result in a penalty sufficient to achieve effective deterrence. EPA requires
the states to report assessed and collected penalties into the AIRS database as matter of record for the
resolution of SVs. It is important that this information be reported fully and accurately.




                                                   28                Report No. E1KAF7-03-0047-7100302
       Concerning the Recommendation, requiring MDE to report into EPA’s database penalties
assessed, settled and collected be made a condition of future grant awards, Region 3 concurs and will
attempt to incorporate this into the fiscal year 1999 grant commitment.

OIG EVALUATION

        As with the previous chapter, we did not report on MDE’s intent for under reporting, but we
did disclose the facts surrounding this issue. First, AIRS can accommodate partial payments and the
amounts collected. Second, it is important to note that MDE seldom entered information about
collected penalties. This was also evidenced by AIRS reports we reviewed. In any event, MDE could
have provided EPA the information it needed to effectively evaluate the adequacy of the State’s
penalties. Moreover, EPA could have addressed this under reporting much sooner.




                                                  29               Report No. E1KAF7-03-0047-7100302
[This page was intentionally left blank]




                  30                Report No. E1KAF7-03-0047-7100302
                                       CHAPTER 5
          USING INSPECTION RESOURCES MORE EFFECTIVELY


                        MDE performed multiple inspections at some facilities without
                        detecting violations of the Clean Air Act. MDE could have used its
                        inspection resources more effectively if it targeted inspections to
                        facilities where inspectors were more likely to detect violations.
                        During fiscal year 1996, MDE reported to EPA that it did more than
                        700 inspections at the 179 major sources in Maryland. This equates to
                        an average of four inspections per facility.

Multiple Inspections    As part of Maryland’s Comprehensive Inspection Plan for fiscal year
Can Be Beneficial       1996, the State committed to do multiple inspections at 20 facilities
                        across the State. According to EPA’s database, MDE reported that it
                        did 52 Level 2 inspections at 19 of these facilities, an average of three
                        inspections per facility. At one facility, the largest in the State, EPA’s
                        database indicates that MDE performed 72 Level 2 inspections.

                        The MDE inspection plan stipulated that, “multiple inspections are
                        conducted at certain sources so that their environmental goals can be
                        accomplished.” Furthermore, it specified that, “If circumstances
                        dictate, additional sources may be targeted for multiple inspections.”
                        MDE personnel told us that they also did more than one inspection at a
                        facility when they received complaints from citizens. State personnel
                        noted that they maintained an active complaint response program to
                        answer air pollution complaints from citizens. These, and the obvious
                        deterrent effect of an inspector’s presence, are all valid reasons for
                        Maryland to conduct more than one inspection at a facility in a fiscal
                        year.

MDE Multiple            Of the 60 facilities we reviewed during this audit, 36 were not planned
Inspections With        for multiple inspections in MDE’s Comprehensive Inspection Strategy,
Questionable Benefits   and received more than one inspection in fiscal year 1996. Details
                        concerning the number of inspections performed are shown below.

                                Number of Inspections
                                    Performed                       Facilities
                                           1-2                         29
                                           3-9                         21
                                          10-15                         6

                                                  31               Report No. E1KAF7-03-0047-7100302
                                  Number of Inspections
                                      Performed                      Facilities
                                             1-2                        29
                                           15-27                         4
                                            Total                       60

                          Three facilities that were not targeted to receive multiple inspections
                          underwent a total of 641 inspections amounting to more than 66 hours
                          of inspection time.2 This is an average of 21 inspections per facility.
                          Of the 64 inspections conducted at these three facilities, only two were
                          conducted due to citizen complaints. For one facility, the complaint
                          inspection was the last inspection conducted in the fiscal year.
                          Therefore, the citizen’s complaint did not cause the previous
                          inspections at this facility. It was also noteworthy that MDE issued
                          only one Notice of Violation for the 64 inspections, and none of the
                          inspection reports provided insight into why the State continued to
                          inspect these same facilities time after time.

                          Thirty-nine of the 64 inspections at these three facilities were coded as
                          “08” and credited as Level 2 inspections. We believe that conducting
                          an average of 21 inspections per facility seems excessive since the
                          inspections were not predicated on complaints or past violations.
                          Furthermore, MDE could have more effectively employed these
                          resources at facilities having a history of noncompliance, receiving
                          numerous citizen complaints, or documented violations of state and
                          federal law. MDE could also have devoted part of these resources to
                          supplementing the inspection time used at other facilities, where it can
                          be questioned whether the inspector allowed adequate time to conduct
                          a thorough inspection and find all possible violations.


RECOMMENDATIO             We recommend that the Region 3 Administrator work with MDE
N                         officials to better target and use inspection resources to optimize
                          inspection results.

MDE RESPONSE

        The findings and conclusions drawn relative to this matter are inaccurate and misleading.
Chapter 5 does not address any of the stated purposes of the OIG audit. It is not clear to us how the
OIG, with no practical knowledge of air pollution sources and issues, and certainly not specific issues
in Maryland, could assign priorities to which sources should receive multiple inspections in Maryland,
and if so how many should be conducted. Citizen complaints and the deterrent effect of an inspector’s
presence are valid reasons to conduct multiple inspections at a facility. The three facilities in
questions are all sources with high community visibility that have been of concern to the community.

                                                    32              Report No. E1KAF7-03-0047-7100302
        The OIG states in the draft report that three facilities received a total of 64 inspections, which
works out to an average of 21 inspections per facility. MDE believes these numbers are an inaccurate
reporting of the facts by the OIG that needs to be changed in the report.

EPA RESPONSE

        We agree with the findings expressed in this chapter and agree with the proposed
recommendation. The OIG report goes into detail concerning how MDE could use its inspection
resources more effectively if it targeted inspections to facilities where inspectors are more likely to
detect violations. It is not effective to conduct numerous inspections of the same quality at the same
source year-after-year with the same result. On a number of occasions, EPA Region 3 has suggested
that MDE spend its resources more effectively by conducting fewer, more thorough inspections and
documenting them better. MDE declined this opportunity.

        Regarding the Recommendation that Region 3 work with MDE officials to better target and
use inspection resources to optimize inspection results, we concur and will offer MDE the opportunity
to engage in a Compliance Monitoring Strategy which will focus on quality and not quantity.

OIG EVALUATION

        We do not agree with MDE that Chapter 5 should be deleted from this report. This chapter did
address one of the purposes of this audit, which was a review of MDE’s inspections. We also disagree
that the OIG is not qualified to offer an opinion in this area. Our office has recently conducted several
audits of EPA’s air program. Moreover, our audit team included a member with nearly 30 years of
experience in the air program.

        We believe that it is not prudent to perform 64 inspections while issuing only one NOV and
responding to two complaints. We recognize that perhaps multiple inspections could be appropriate at
these three facilities, but not an average of 21 inspections at each facility when there was no
documented justification.

        MDE contends that the number of inspections we reported was inaccurate because 25 of the 64
inspections were observations. We disagree because whether the visit to the facility was called an
observation or an inspection, the fact remains that MDE inspectors visited these three facilities a total
of 64 times. Also, our draft report did recognize that 25 of MDE’s visits were observations and not
Level 2 inspections.

        EPA’s comment that it had previous concerns about the multiple inspections MDE performed
is noted. However, effective oversight by EPA should have placed the requirement to more
effectively focus resources in MDE’s Section 105 grant prior to this time.




                                                    33                Report No. E1KAF7-03-0047-7100302
APPENDIX A - MDE’S RESPONSE TO DRAFT REPORT




                    34          Report No. E1KAF7-03-0047-7100302
[This page was intentionally left blank]




                  35                Report No. E1KAF7-03-0047-7100302
APPENDIX B - EPA’S RESPONSE TO DRAFT REPORT




                    57          Report No. E1KAF7-03-0047-7100302
[This page was intentionally left blank]




                  58                Report No. E1KAF7-03-0047-7100302
                                APPENDIX C - DISTRIBUTION



Headquarters

Office of Inspector General - Headquarters (2421)
Agency Audit Followup Coordinator (3304)
Agency Audit Followup Official (3101)
Assistant Administrator for Enforcement & Compliance Assurance (2201A)
Assistant Administrator for Air & Radiation (6101)
Associate Administrator for Congressional & Legislative Affairs (1301)
Associate Administrator for Communications, Education & Public Affairs (1701)
Associate Administrator for Regional Operations & State/Local Relations (1501)
EPA Library (3403)

EPA Region 3

Regional Administrator (3RA00)
Director, Air, Radiation & Toxics Division (3AT00)
Director, Office of External Affairs (3EA00)
Chief, Grants & Audit Management Branch (3PM70)
Regional Library (3PM52)

Other

Secretary, Department of the Environment
  State of Maryland
Director, Air and Radiation Management Administration
  State of Maryland
Office of Inspector General - Divisional Offices
General Accounting Office




                                               67               Report No. E1KAF7-03-0047-7100302
